             The Department’s Administration of Selected 

                Aspects of the Reading First Program



                                 FINAL AUDIT REPORT





                                    ED-OIG/A03G0006 

                                      February 2007 



Our mission is to promote the                           U.S Department of Education
efficiency, effectiveness, and                          Office of Inspector General
integrity of the Department’s                           Philadelphia, PA
Programs and Operations.
                             NOTICE

Statements that managerial practices need improvements, as well as
other conclusions and recommendations in this report, represent the
opinions of the Office of Inspector General. Determinations of
corrective action to be taken will be made by the appropriate
Department of Education officials.

In accordance with Freedom of Information Act (5 U.S.C. § 552),
reports issued by the Office of Inspector General are available to
members of the press and general public to the extent information
contained therein is not subject to exemptions in the Act.
                            UNITED STATES DEPARTMENT OF EDUCATION

                                                OFFICE OF INSPECTOR OENERAL


                                                                                                             THE INSPECTOR GENERAL


                                                      February 22, 2007


Memorandum

TO:              Ray Simon
                 Deputy Secretary
                 Lead Action Official

                 Lawrence A. Warder
                 Chief Financial Officer
                 Office of the Chief Financial Officer

FROM:            John P. Higgins, Jr. lsi

SUBJECT:        Final Audit Report
                The Department's Administration of Selected Aspects ofthe Reading First
                Program 

                Control Number ED-OIG/A03G0006 


Attached is the subject final audit report that covers the results of our review of selected aspects ofthe
Department's administration ofthe Reading First program during the period August 1, 2001, through
September 30,2004. An electronic copy has been provided to your Audit Liaison Officers. We
received your comments, which concurred with the recommendations, but only concurred in part with
the findings in our draft report.

Corrective actions proposed (resolution phase) and implemented (closure phase) by your offices will be
monitored and tracked through the Department's Audit Accountability and Resolution Tracking System
(AARTS). ED policy requires that you enter your final corrective action plan (CAP) for our review in
the automated system within 30 days of the issuance ofthis report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector General
is required to report to Congress twice a year on the audits that remain unresolved after six months
from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office of
Inspector General are available to members of the press and general public to the extent information
contained therein is not subject to exemptions in the Act.                                                                           L




                                          400 MARYLAND AVE.. S.W. WASHINGTON, D.C. 20202-1510 




          Qur mission is to ensure equal access to education and to promote educational excellence throughout the Nation. 

Page 2 of 2


We appreciate the cooperation given us during this review. If you have any questions, please call
Bernard Tadley, Regional Inspector General for Audit, at 215-656-6279.

Attachment

cc: Anne Campbell, Chief of Staff, Office of Elementary and Secondary Education

electronic cc: Dolores Warner, Audit Liaison Officer, Office of Elementary and Secondary
               Education

              Gail Cornish, Audit Liaison Officer, Office of the Chief Financial Officer
                          TABLE OF CONTENTS 


                                                                       Page

EXECUTIVE SUMMARY…………………………………………………………………….. 1

BACKGROUND………………………………………...……………………………………… 3

AUDIT RESULTS…………………………………………………...…………………………. 6

      FINDING NO. 1 – Sessions at The Secretary’s Reading Leadership
                      Academies Focused on a Select Number of Reading
                      Programs………………………………………………………….. 6

      FINDING NO. 2 – The Secretary’s Reading Leadership Academy Handbook
                      and Guidebook Appeared to Promote the Dynamic
                      Indicators of Basic Early Literacy Skills Assessment
                      Test………………………………………………………………..12

      FINDING NO. 3 – The Department Did Not Adequately Assess Issues
                      of Bias and Lack of Objectivity…………………………………14

OTHER MATTERS…………………………………………………………………………. 17

OBJECTIVE, SCOPE, AND METHODOLOGY…………………………………………. 19

ATTACHMENT 1 – The Secretary’s Reading Leadership Academy 1, Day 2,
               Participant Evaluations

ATTACHMENT 2 – The Secretary’s Reading Leadership Academy 2, Day 2,
               Participant Evaluations

ATTACHMENT 3 – The Secretary’s Reading Leadership Academy 3, Day 2,
               Participant Evaluations

ATTACHMENT 4 – Auditee’s Comments
Final Report
ED-OIG/A03G0006                                                                                     Page 1 of 19



                                     EXECUTIVE SUMMARY 



As part of the U.S. Department of Education's (Department) efforts to equip states with the
information and resources needed to implement the Reading First provision of the No Child Left
Behind Act of 2001 (NCLB Act), the Department and the National Institute for Literacy (NIFL)
sponsored three major reading academies, the Secretary’s Reading Leadership Academies
(RLAs). The RLAs were held in Washington, D.C., in January and February 2002, and hosted
policymakers and key education leaders from every state and territory in the nation. The
academies were designed to help state leaders gear up for the implementation of Reading First,
the Department’s program to improve the quality of reading instruction in kindergarten through
third grade. The Department also provided support to states and districts in their Reading First
program implementation by funding the National Center for Reading First Technical Assistance
(NCRFTA) contract.

The objective of our audit was to determine whether the Department carried out its role in
accordance with applicable laws and regulations in administering the RLAs and related meetings
and conferences, the NCRFTA contract award process, and its website and guidance for the
Reading First program.1

Our audit disclosed that the Department generally administered its Reading First website, and its
Guidance for the Reading First Program, dated April 2002, in accordance with applicable laws
and regulations. With regard to the RLAs, we concluded that the Department did not have
controls in place to ensure compliance with the Department of Education Organization Act
(DEOA) and NCLB Act curriculum provisions. Specifically, we found that: 1) the “Theory to
Practice” sessions at the RLAs focused on a select number of reading programs; and 2) the RLA
Handbook and Guidebook appeared to promote the Dynamic Indicators of Basic Early Literacy
Skills (DIBELS) Assessment Test. With regard to RMC Research Corporation’s (RMC)
technical proposal for the NCRFTA contract, we concluded that the Department did not
adequately assess issues of bias and lack of objectivity when approving individuals to be
technical assistance providers before and after the NCRFTA contract was awarded.

We recommend that the Assistant Secretary for Elementary and Secondary Education –

• 	 Establish controls to ensure compliance with, and avoid the appearance of violating the
    DEOA and the NCLB Act curriculum provisions, especially when organizing conferences
    where specific programs of instruction are likely to be formally discussed or presented at
    Department sponsored events;
• 	 Establish controls to ensure it does not promote curriculum or create the appearance that it is
    endorsing or approving curriculum in its conference materials and related publications; and
• 	 In coordination with the Chief Financial Officer, establish controls to ensure adequate
    assessments of bias and lack of objectivity for individuals proposed to perform Department
    contract work are conducted by the Department and its contractors.

1
 Refer to the Objective, Scope, and Methodology section of the report for the scope of work performed related to
our audit objective.
Final Report
ED-OIG/A03G0006                                                                       Page 2 of 19

The Department concurred with the recommendations in the draft report and provided proposed
corrective actions to address each recommendation. However, it only agreed in part with the
findings in the report. The Department stated that the report did not present a balanced summary
of the activities reviewed, asserting that the report did not recognize the positive aspects of the
activities and challenges faced in planning these activities (the RLAs). We acknowledge that
there were positive aspects of the RLAs; however, the purpose of this report is to identify
opportunities for improvement. To address some of the Department’s concerns, we included the
RLA Participant Evaluations for day two of the second RLA in this final report (see Attachment
2), so that all of the participants’ comments (positive and negative) are included in the report.
The Department’s specific comments are addressed after each finding, and the full text of its
response is provided as Attachment 4 to this report.

We also found that there is interest in placing more emphasis on a reading program’s scientific
evidence of effectiveness in determining its eligibility for Reading First funds. We suggest that
the Department and Congress, during the next reauthorization of the law, clarify whether reading
programs need to have scientific evidence of effectiveness in order to be eligible for funding
under Reading First. This issue is discussed in the Other Matters section of the report.
Final Report
ED-OIG/A03G0006                                                                          Page 3 of 19



                                       BACKGROUND 



In 2000, the Partnership for Reading, now authorized by the Elementary and Secondary
Education Act (ESEA), as amended by the NCLB Act (Public Law 107-110), was established.
The Partnership was a collaborative effort by three federal agencies: NIFL, the National Institute
of Child Health and Human Development (NICHHD), and the Department; to bring the findings
of evidence-based reading research to the educational community, families, and others with an
interest in helping all people learn to read well. According to NIFL, the Partnership's mission
was to disseminate evidence-based research, a focus that made it substantively different from
earlier information dissemination efforts and clearinghouses. This mandate to use evidence-
based research as the basis for making decisions about reading instruction was continued by the
work of the National Reading Panel (NRP), assigned by Congress in 1997 to review the available
research. The NRP examined more than 460 studies to extract the essential findings about what
has been scientifically proven to work in reading instruction.

The ESEA, as amended by the NCLB Act on January 8, 2002, established the Reading First
program. Title 1, Part B, Section 1002(b)(1) of the ESEA authorized an appropriation for
Reading First of $900,000,000 for fiscal year 2002 and “sums as may be necessary for each of
the five succeeding fiscal years.” The appropriations for fiscal years 2003, 2004, 2005, and 2006
were $993,500,000, $1,023,923,000, $1,041,600,000, and $1,029,234,000, respectively. From
January 2002, through September 2006, two Department officials in the Department’s Office of
Elementary and Secondary Education (OESE) administered Reading First, a Reading First
Director and an Education Program Specialist.

In April 2002, the Department issued guidance for the Reading First program and placed this
guidance on the Department’s website. The website provided information about Reading First
for teachers, principals, parents, state and local education officials, and anyone with an interest in
improving reading instruction and increasing student achievement. According to the Reading
First guidance, the Reading First program focused on putting proven methods of early reading
instruction in classrooms. Through Reading First, states and districts received support to apply
scientifically based reading research (SBRR)—and the proven instructional and assessment tools
consistent with this research—to ensure that all children learned to read well by the end of third
grade. The Department provided formula grants to states that submitted an approved application.
State Educational Agencies (SEAs) then awarded subgrants to eligible Local Educational
Agencies (LEAs) on a competitive basis. SEAs funded subgrants that showed the most promise
for raising student achievement and for successful implementation of reading instruction,
particularly at the classroom level. Only programs that were based on SBRR were eligible for
funding through Reading First.

Title 1, Part B, Section 1208(6) of the ESEA defines SBRR as research that:
    A. Applies rigorous, systematic, and objective procedures to obtain valid knowledge 

        relevant to reading development, reading instruction, and reading difficulties; and 

    B. Includes research that-
        i. Employs systematic, empirical methods that draw on observation or experiment;
Final Report
ED-OIG/A03G0006                                                                                        Page 4 of 19

         ii. 	 Involves rigorous data analyses that are adequate to test the stated hypotheses and
               justify the general conclusions drawn;
         iii. Relies on measurements or observational methods that provide valid data across
               evaluators and observers and across multiple measurements and observations; and
         iv. Has been accepted by a peer-reviewed journal or approved by a panel of independent
               experts through a comparably rigorous, objective, and scientific review.

NIFL, an interagency group composed of the Secretaries of Education, Labor, and Health and
Human Services (HHS), was authorized under the NCLB Act to help children, youth, and adults
learn to read by supporting and disseminating SBRR. In 1998-1999, NIFL was appropriated $5
million in funds under the Reading Excellence Act (REA) program to conduct a National
Reading Research Dissemination Campaign (NRRDC).2 In September 2000, NIFL contracted
with RMC to perform tasks for the NRRDC.

In August 2001, five months prior to the Reading First program legislation being signed into law,
the Department started gearing up its Reading First program and wanted to disseminate the
findings about SBRR to the states. The Department did not have the funding to hold conferences
on SBRR so it requested NIFL’s help.

In September 2001, the RLAs were added as a task under NIFL’s NRRDC contract with RMC.
The Department and NIFL sponsored three reading academies, the Secretary’s RLAs, which
were held in Washington, D.C., on January 23-25, February 13-15, and February 20-22, 2002.
In planning the RLAs, the Assistant Secretary (former) for OESE and other Department officials
worked with NIFL, RMC, and numerous individuals outside of the Department. Several of these
individuals were associated with the Direct Instruction program. The RLAs featured
presentations on topics, such as effective reading instruction, the selection of reading programs,
accountability and assessment in reading, professional development for reading teachers and
others, and instructional leadership. Department officials and researchers from research
institutions made presentations and led discussions with participants on teaching reading based
on scientific research.

The goals of the RLAs were to help states:

    • 	 Develop a knowledge base about scientifically based reading instruction;
    • 	 Build capacity to design and sustain professional development for teachers in 

         scientifically based reading instruction; 

    • 	 Acquire the knowledge and tools to implement the Reading First initiative; and
    • 	 Partner with school districts and the Department to improve reading achievement.

The RLAs also included a session, titled “Theory to Practice: A Panel of Practitioners.” The
speakers discussed how implementing a scientifically based reading program had brought about
great improvements in the reading skills of their kindergarten through third grade students. In
addition, there was a luncheon speaker on the second day of the first and third RLA who

2
  The REA program pre-dated the Reading First program. The REA program was designed to provide children with
the readiness skills and support they needed to learn to read once they enter school; teach every child to read by the
end of third grade; and use research-based methods to improve the instructional practices of teachers and other
instructional staff.
Final Report
ED-OIG/A03G0006                                                                          Page 5 of 19

discussed the improved reading scores of his school’s students since implementing its reading
program.3

At each RLA, attendees were provided an RLA Handbook. The book included copies of the
presentations from each RLA session. There were three different versions of the RLA Handbook,
as it was specific to the particular RLA attended. At the end of each day of each RLA, attendees
were provided with an evaluation form to critique that day’s training. The evaluation forms were
provided to the Department.

The Department provided support to states and districts in their Reading First program
implementation by funding the NCRFTA contract. The NCLB Act authorized the NCRFTA to
provide comprehensive technical assistance to states and districts over five years. The total cost
to the Department for full performance of the contract was estimated to be $6,891,035. RMC
was the only firm that responded to the solicitation. RMC was awarded the contract on
September 30, 2003, and it currently serves as the national coordinator for Reading First
technical assistance. The purpose of the contract was to establish three regional centers located
in the western, central, and eastern regions of the United States. RMC subcontracted with the
Institute for the Development of Educational Achievement (University of Oregon, Eugene), the
Texas Center (Vaughn Gross Center) for Reading and Language Arts (University of Texas,
Austin), and the Florida Center for Reading Research (Florida State University, Tallahassee) to
provide technical assistance to states and districts in the western, central and eastern regions of
the United States, respectively.

The Department is generally prohibited from exercising control over any school’s curriculum or
program of instuction. Section 3403(b) of the DEOA provides that Department officials shall
not construe any provision of a Department program as authorizing the Department to exercise
any direction, supervision, or control over the curriculum or program of instruction of any
school, or school system. Section 9527(a) of the ESEA, as amended by the NCLB Act, prohibits
Department officials from construing any provision of the NCLB Act as authorizing such
officials to mandate, direct, or control an SEA, LEA, or school’s curriculum, or program of
instruction. Further, Section 9527(b) prohibits the Department from using any NCLB Act
program funds to endorse, approve, or sanction any curriculum.

A number of complaints have been made that the Department exercised undue influence in its
administration of the Reading First program, by promoting or endorsing specific reading
programs, materials, assessment instruments, and models of instruction. In addition to this audit,
the OIG conducted an inspection of the Department’s administration of the Reading First grant
application process, a series of audits of selected states’ (Wisconsin, New York, and Georgia)
implementation of the Reading First program, as well as an audit of RMC’s administration of the
Reading First program contracts.4




3
 There was a luncheon speaker from the Department on the second day of the second RLA. 

4
 Inspection Report-ED-OIG/I13F0017, Wisconsin Report-A05G0011, New York Report-A02G0002, Georgia 

Report-A04G0003, RMC Report-A03F0022 (not issued as of the issuance of this report).

Final Report
ED-OIG/A03G0006                                                                                      Page 6 of 19



                                            AUDIT RESULTS 



Our audit disclosed that the Department generally administered its Reading First website and its
Guidance for the Reading First Program, dated April 2002, in accordance with applicable laws
and regulations.5 With regard to the RLAs, we concluded that the Department did not have
controls in place to ensure compliance with the DEOA and NCLB Act curriculum provisions.
Specifically, we found that: 1) the “Theory to Practice” sessions at the RLAs focused on a select
number of reading programs; and 2) the RLA Handbook and Guidebook appeared to promote the
DIBELS Assessment Test. With regard to RMC’s technical proposal for the NCRFTA contract,
we concluded that the Department did not adequately assess issues of bias and lack of objectivity
when approving individuals to be technical assistance providers before and after the NCRFTA
contract was awarded.

The Department concurred with the recommendations in the draft report and provided proposed
corrective actions to address each recommendation. However, it only agreed in part with the
findings in the report. The Department’s specific comments are addressed after each finding,
and the full text of its response is provided as Attachment 4 to this report.

Finding No. 1 – Sessions at The Secretary’s Reading Leadership Academies Focused on a
                Select Number of Reading Programs

We concluded that the Department did not have controls in place to ensure compliance with the
DEOA and NCLB Act curriculum provisions.6 We found that: 1) only a select number of
reading programs were discussed during the “Theory to Practice: A Panel of Practitioners”
sessions; 2) at the first and third RLAs, the luncheon speaker’s presentation featured one of the
few reading programs discussed during the “Theory to Practice” sessions; and 3) participants at
the first and third RLAs expressed concerns that certain programs were being endorsed and
promoted by the Department.

In January and February 2002, the Department and NIFL sponsored three Secretary’s RLAs in
Washington, D.C. According to NIFL, the RLAs were designed to help state leaders gear up for
swift and successful implementation of Reading First. The RLAs included a session titled
“Theory to Practice: A Panel of Practitioners.”

The Director of NIFL informed us that the intent of the RLAs was to disseminate information on
the SBRR findings to the states. The Director also stated that the RLAs started as a joint effort
between the Department and NIFL. However, the Director stated that after the Assistant
Secretary (former) for OESE proposed that the Secretary of Education (former) sponsor the
RLAs, the Department became much more involved in the planning of the RLAs and controlled
the meetings. The Department also exercised control over the content and presenters. In

5
  Refer to the Objective, Scope, and Methodology section of the report for the scope of work performed related to

our audit objective. 

6
  The OIG Inspection Report ED-OIG/I13F0017 also identified instances where the Department did not have a 

control environment that exemplified management accountability. 

Final Report
ED-OIG/A03G0006                                                                                    Page 7 of 19

planning the content of the RLAs, the Department worked with numerous individuals outside of
the Department. Several of these individuals were associated with the Direct Instruction
program. The RLAs became known as the Secretary’s RLAs.

Composition of the “Theory to Practice” Panels
The Department included only a select number of reading programs for discussion by the
“Theory to Practice” panel members. The following chart shows the limited number of
programs presented by “Theory to Practice” panels at the RLAs:

  Reading Leadership                                                                Reading Programs
   Academy (RLA)               Panel Member - Position at the time of the RLA           Discussed7
RLA 1, Jan. 23-25, 2002    Principal, City Springs Elementary, Baltimore, MD        Direct Instruction
                           Reading Facilitator, Parham School, Cincinnati, OH       Direct Instruction
                           Principal, Parham School, Cincinnati, OH                 Direct Instruction
                           Teacher, Tovashal Elementary School, Murrieta, CA        Open Court

RLA 2, Feb. 13-15, 2002    Principal, City Springs Elementary, Baltimore, MD        Direct Instruction
                           Asst. Administrator, Washington Reads, WA Office of      Open Court,8 Read
                           the Superintendent of Public Instruction, Olympia, WA    Well
                           Principal, Weaver Elementary School, Weaver, AL          Houghton-Mifflin,8
                                                                                    Soar to Success

RLA 3, Feb. 20-22, 2002    Principal, City Springs Elementary, Baltimore, MD        Direct Instruction
                           Principal, Parham School, Cincinnati, OH                 Direct Instruction
                           Asst. Superintendent, L.A. Unified School District, CA   Open Court

During the “Theory to Practice” sessions, each of the panel members discussed the reading
success stories of the students in his or her school or district. A question and answer period with
the audience followed. At the first RLA, held on January 23-25, 2002, three of the four panel
members talked about the Direct Instruction program. The fourth panel member discussed the
Open Court program, held up the Open Court Reader for the audience to view, and read a brief
passage from it.

After the “Theory to Practice” session, there were many comments by attendees indicating they
felt the RLA was biased toward Direct Instruction and Open Court. Consequently, the next day,
the Director of the Reading First Office (former) explained to the audience at the first RLA that
the intention of the panelists was not to “plug” certain programs. The Department invited some
of the same panel members back to participate on the “Theory to Practice” panels at the second
and third RLAs. However, the Department did not instruct any of the panel members to refrain
from naming the programs that they were using.

At the second RLA, held on February 13-15, 2002, the “Theory to Practice” panel included three
panelists. One of the three panelists was a participant from the first RLA. Once again, this
panelist discussed the Direct Instruction program.


7
  The panel members named the programs that they were using during their presentation and during the question and
answer period with the exception of the Assistant Administrator for Washington Reads and the Principal of Weaver
Elementary School. These two panel members named the reading programs during the question and answer period
only.
8
  The panel member noted that this program was not working for the school he or she discussed.
Final Report
ED-OIG/A03G0006                                                                         Page 8 of 19

At the third RLA, held on February 20-22, 2002, the “Theory to Practice” panel was composed
of three panelists. Two of the three panelists had participated in previous panels and once again
they discussed the Direct Instruction program. The third panel member discussed the Open
Court program and read a series of letters from a teacher, which described how the teacher was at
first skeptical of Open Court, but took the training, taught it in class, and became a big supporter
of the program.

An email, to the Director of the Reading First Office (former), from a colleague outside of the
Department, dated January 15, 2002, with a subject line of “Fwd: School Using DI in Cinn.”
suggested the Department may have intentionally wanted to showcase the Direct Instruction
program by selecting “Theory to Practice” panelists who used Direct Instruction successfully in
their district or at their schools. The email stated –

       When [an RLA consultant] had me looking for possible administrators to present
       at RF [Reading First] academies [the former principal of Wesley Elementary
       School in Houston, TX, which has one of the longest continuous Direct
       Instruction implementations in the country] recommended the principal of this
       school [Parham School, Cincinnati, OH].

The principal of Parham School was a panelist for two of the three “Theory to Practice” sessions,
and also discussed the Direct Instruction program.

Selection of the Luncheon Speaker
In addition to the “Theory to Practice” session, there was a luncheon speaker on the second day
of each academy. The luncheon speaker at the first and third RLAs was the principal of the Seed
Academy and Harvest Preparatory School. The principal’s presentation focused on one reading
program, Direct Instruction. During both of his presentations, the principal discussed how he
was looking for a model of successful instruction to implement at his school when he learned of
Direct Instruction. The principal then used slides to show the improved reading scores of his
school’s students since implementing Direct Instruction.

An email, dated January 14, 2002, from the Director of the Reading First Office (former) inviting
the principal of the Seed Academy and Harvest Preparatory School to speak at the RLAs
indicated that the Department may have favored Direct Instruction. The email stated –

       We have chatted several times at ADI [Association for Direct Instruction] Eugene
       conferences, and recently (I think) about the DI [Direct Instruction]-based middle
       school my wife and I started in rural Africa several years ago. I am still the
       President of the Board of that school . . . . I’ve also been working with a bunch of
       public schools in my home of Baltimore, trying to do what you’ve done at Seed.

       . . . we would hugely appreciate it if you could make time in your schedule to
       speak a bit at our never-been-done before Reading Leadership Academies.

The Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government requires that agencies develop detailed policies and procedures, and practices to fit
their agency’s operations and to ensure that they are built into and are an integral part of
operations. Policies and procedures are a part of the control activities that enforce management’s
Final Report
ED-OIG/A03G0006                                                                                       Page 9 of 19

directives and are an integral part of an entity’s planning, implementing, reviewing, and
accountability for stewardship of government resources and achieving effective results. Control
activities help to ensure that actions are taken to address risk. As a part of these control
activities, policies and procedures should have been developed and implemented to minimize the
risks the Department may face when it engages external speakers at conferences it sponsors.
One such risk was the risk of the perception that the Department favored a particular program,
tool, or entity. Another risk was the risk of violating the DEOA, which established the
Department and describes the Federal-State relationship in education as follows –

         Section 3403 (b) No provision of a program administered by the Secretary or by
         any other officer of the Department shall be construed to authorize the Secretary
         or any such officer to exercise any direction, supervision, or control over the
         curriculum, program of instruction, administration, or personnel of any
         educational institution, school, or school system . . . over the selection or content
         of . . . textbooks, or other instructional materials by any educational institution or
         school system, except to the extent authorized by law.9

Section 9527(b) of the NCLB Act (20 U.S.C. Section 7907) reinforces the language in the
DEOA. Specifically, it prohibits funds provided to the Department from being used by the
Department to endorse, approve, or sanction any curriculum designed to be used in an
elementary or secondary school.

RLA Participant Comments
As a result of the Department not having controls to ensure compliance with the DEOA, and the
NCLB Act prohibitions against endorsing or promoting programs of instruction, some attendees
at the RLAs felt that the Department was endorsing the Direct Instruction and Open Court
reading programs. The comments expressed on the evaluation forms from the first and third
RLAs included10 –

•	       “The . . . Theory to Practice Panel – was very poor. It sounded like a sales job for a
         program as opposed to a description of enabling teachers to teach reading.”
•	       “I felt like it was simply a push for a national curriculum. I think I’ll go buy shares in
         Open Court!”
•	       “Panel was a sales job for Direct Instruction and Open Court.”
•	       “Please do not promote a program (Open Court) (Direct Instruction). This is not the
         Department of Education’s place to do.
•	       “I felt like I was in a Direct Instruction sales pitch all day. Thanks for including at least
         one other program.”
•	       “I felt it was wrong to showcase one specific program (D.I.) excessively . . ..”
•	       “Today’s sessions may have given an excessive government endorsement to Direct
         Instruction.”

9
  The Department’s actions with respect to this provision of the law are also discussed in the OIG Inspection Report 

ED-OIG/I13F0017.

10
   We have included the participant evaluation forms for Day 2 of RLAs #1, #2, and #3 as Attachments 1, 2, and 3,

respectively. We did not find comments on the second RLA participant evaluation forms indicating that the 

respondents felt the “Theory to Practice” session favored specific reading programs. This may have been because 

only one panel member named the program (Direct Instruction) she was using during her presentation.

Final Report
ED-OIG/A03G0006                                                                      Page 10 of 19

In addition, there was a perception by some states that the programs discussed at the RLAs were
part of a Department “approved list” of Reading First programs. As a result, in April 2002, the
Reading First Office was compelled to put a notice on its website clarifying that the Department
did not have an approved list of reading programs for use with Reading First funds.

Nonetheless, the view that there was a Department “approved list” of Reading First reading
programs persisted, and in a letter to Reading First State Directors, dated October 11, 2005, over
two years after Reading First applications were approved, the Director of the Reading First
Office (former) wrote –

        The U.S. Department of Education has consistently and openly stated that there is
        no Federal “approved list” of reading programs for use under the Reading First
        program. The Department has not developed or endorsed any list of instructional
        programs as appropriate for use, nor has the Department indicated a preference
        for certain kinds of instructional programs, such as basal textbook-based
        programs.

The sessions at the RLAs focused on a select number of reading programs, which gave attendees
the impression that the Department was promoting these specific reading programs. Since the
Department wanted senior level state leaders, who would be Reading First program
policymakers, to attend the RLAs, it should have taken all action possible to minimize the
perception that it could be viewed as endorsing any reading program. The Department had
control of the agenda and presenters for the RLAs and should have ensured that nothing in the
RLAs could be viewed as endorsements or approval of any particular program. As one of the
sponsors, the Department had a responsibility to avoid all appearances of violating the letter and
spirit of the DEOA or Section 9527(b) of the NCLB Act. The appearance that the Department is
endorsing or approving curriculum in its conference sessions can damage the integrity of the
event and the reputation of the Department.

The evidence above calls into question whether the Department violated the DEOA and the
NCLB Act curriculum provisions.

Recommendation
We recommend that the Assistant Secretary for Elementary and Secondary Education –

1.1 	   Establish controls to ensure compliance with, and avoid the appearance of violating the
        DEOA and NCLB Act curriculum provisions, especially when organizing conferences
        where specific programs of instruction are likely to be formally discussed or presented at
        Department sponsored events.

Department Comments

The Department concurred with the recommendation and provided proposed corrective action to
address it. However, the Department agreed only in part with the finding, stating that the finding
failed to provide a balanced summary of the activities reviewed.
Final Report
ED-OIG/A03G0006                                                                        Page 11 of 19

The Department explained –

       While we agree that the audience should have been adequately advised that the
       Department was not promoting or endorsing a specific program, we do not think
       that there is any problem in having panelists highlight certain successful programs
       or identify the specific programs they are implementing. . . . To the contrary, we
       have received positive feedback that this is the kind of helpful information that
       applicants and grantees need to make their programs more effective. Furthermore,
       when panelists failed to specifically say what program they were implementing,
       participants during the question and answer session asked for the program to be
       named . . . . Thus, it is reasonable for the panelists to mention the names of the
       programs they were using, so that the Department can carry out its important
       statutory responsibilities to disseminate information on effective and promising
       practices.

The Department further stated –

       . . . [it] cannot be expected to present information on all possible programs. It is
       reasonable that the Department should be able to present information on certain
       programs, as long as it is made clear that the programs presented are merely
       examples of the types of programs that might be supported with Reading First
       funds and that the presentation was not intended to be an endorsement or
       promotion of a specific program.

The Department also stated it was concerned that steps taken by Department officials to clarify
the false impression that was left with some of the conference attendees were represented in the
report as further evidence of its initial failure to indicate that it was not endorsing or promoting
particular programs. These actions should have been recognized as positive steps that
Department personnel expeditiously took to clarify this false impression. These actions
included:

   • 	 Informing the audience at the first RLA that the purpose of the “Theory to Practice”
       sessions was not to promote or endorse any particular program; and
   • 	 Posting a clarifying note on the Reading First website and sending a letter to Reading
       First State Directors indicating that there was not an “approved list” of reading programs
       that could be funded under Reading First.

OIG Response

We acknowledge that there were positive comments on the RLA evaluation forms regarding the
“Theory to Practice” sessions, (see Attachments 1, 2, and 3). However, the negative comments
should have alerted the Department that some attendees felt the Department was endorsing or
promoting the Direct Instruction and Open Court reading programs. Prior to conducting the
second and third RLAs, the Department should have done more to mitigate this perception. The
Department was advised about this perception in the following emails:
Final Report
ED-OIG/A03G0006                                                                     Page 12 of 19

   • 	 In an email attachment to the Director of the Reading First Office (former), from the
       facilitator of the first RLA, dated January 27, 2002, titled “Notes from Debriefing of the
       First RLA,” the notes include the following point: “Too much emphasis on Direct
       Instruction.”

   • 	 Another email, dated February 4, 2002, to the Director of the Reading First Office
       (former), from the President of RMC, included feedback from a consultant who was
       tasked with analyzing the RLA participant evaluations from the first RLA. It stated,
       “And, as everyone knows, Open Court and Direct Instruction can’t be the only shows in
       town.”

Although, additional reading programs were discussed during the second RLA’s “Theory to
Practice” session, as stated in the finding, for the third RLA the Department again only selected
panelists that used the Direct Instruction and Open Court reading programs. This again gave the
impression that the Department was endorsing or promoting these programs, and that they were
approved Reading First programs. Our concern is that only a few specific reading programs
were discussed when there were other reading programs available.

We do not believe the actions taken by the Department to clarify that it was not endorsing or
promoting any particular programs have been misrepresented in the audit finding. As stated in
the finding, the perception of an “approved list” still persisted well after the RLAs. Although
OESE put a note on its website in 2002 to address the perception, it was still compelled to take
further action to address the perception in 2005, over three years after the RLAs were held. This
is evidence that in planning for the first RLA, the Department did not address the risk of
appearing to promote or endorse a particular program. Further, once it became evident that there
was a perception by some of the attendees of the first and third RLAs that the Department was
endorsing or promoting reading programs, not enough was done to mitigate this perception.

Finding No. 2 - The Secretary’s Reading Leadership Academy Handbook and Guidebook,
                Appeared to Promote the Dynamic Indicators of Basic Early Literacy Skills
                Assessment Test

The Reading First statute required the use of screening, diagnostic, and classroom-based reading
assessments so that teachers could effectively screen, identify, and overcome reading barriers
facing their students. We found that the Department appeared to promote DIBELS by including
an article featuring it in the RLA Handbook and Guidebook.

At each RLA, attendees were given a RLA Handbook that contained the PowerPoint slides for
each speaker’s presentations. The RLA Handbook also included an article titled, “The
Importance and Decision-Making Utility of a Continuum of Fluency-Based Indicators of
Foundational Reading Skills for Third-Grade High-Stakes Outcomes.” This 29-page article
featured DIBELS, one of many screening tools on the market that could have been used for
performing Reading First assessments. The Department also included this article in the RLA
Guidebook. The RLA Guidebook, published in September 2002, was a collection of the
presentations and resources that formed the basis of the RLAs. While numerous assessment
Final Report
ED-OIG/A03G0006                                                                                    Page 13 of 19

instruments were listed in the RLA Handbook and Guidebook, only DIBELS was featured in an
article in both books.11

The RLA Handbook was provided at the RLAs, which were held to assist states in gearing up for
their implementation of the Reading First program. The RLA Guidebook was provided shortly
thereafter, when states were preparing their Reading First applications. As a result, states may
have been given the impression that DIBELS was the assessment test the Department preferred
for use in the Reading First program. In fact, 43 states indicated in their Reading First
applications that they intended to use DIBELS as one of their assessment test instruments.

As cited in Finding 1, federal laws and regulations applicable to this finding are in the DEOA,
and the NCLB Act, which contain provisions prohibiting the Department from exercising
direction or control over curriculum, or from endorsing any curriculum or program of
instruction.12 Also as cited in Finding 1, GAO’s Standards for Internal Control in the Federal
Government requires that agencies develop detailed policies and procedures, and practices to fit
their agency’s operations and to ensure that they are built into and are an integral part of
operations. Policies and procedures are a part of the control activities that enforce management’s
directives and are an integral part of an entity’s planning, implementing, reviewing, and
accountability for stewardship of government resources and achieving effective results. Control
activities help to ensure that actions are taken to address risk. As a part of these control
activities, policies and procedures should have been developed and implemented to minimize the
risks the Department may face when it provides guidance to state-level administrators and policy
makers. One such risk was the risk of the perception that the Department favored a particular
program, tool, or entity.

We concluded that the Department did not have controls in place to ensure it was not promoting
curriculum or creating the appearance that it was endorsing or approving curriculum in its
conference materials and related publications.13

The appearance that the Department is endorsing or approving curriculum in its conference
materials and related publications can damage the integrity of the event and the reputation of the
Department.

Recommendation
We recommend that the Assistant Secretary for Elementary and Secondary Education –

2.1 	   Establish controls to ensure it does not promote curriculum or create the appearance that
        it is endorsing or approving curriculum in its conference materials and related
        publications.




11
   The article included an examination of the decision-making utility of the DIBELS benchmark goals in the context 

of a district engaged in a school-wide educational reform effort targeting phonological awareness and alphabetic

principle skills. 

12
   The Department has not defined the terms “curriculum” or “program of instruction.” 

13
   The OIG Inspection Report ED-OIG/I13F0017 also identified instances where the Department did not have a 

control environment that exemplified management accountability. 

Final Report
ED-OIG/A03G0006                                                                         Page 14 of 19

Department Comments

The Department concurred with the recommendation and provided proposed corrective action to
address it. The Department did not provide any specific comments in its response indicating
agreement or disagreement with this finding.

Finding No. 3 – The Department Did Not Adequately Assess Issues of Bias and Lack of
                Objectivity

We found that the Department did not adequately assess issues of bias and lack of objectivity
when approving individuals to be technical assistance providers before and after the NCRFTA
contract was awarded. Specifically, the Department did not: 1) adequately vet proposed
technical assistance providers resumes, and 2) follow up on reading related contracts held by
technical assistance providers in order to determine whether views and positions taken could be
largely motivated from the close identification or association of an individual with a particular
point of view or the positions or perspectives of a particular group.

When RMC submitted its proposal for the NCRFTA contract, it included the names and resumes
of key personnel, including Regional Directors. Although issues of bias and lack of objectivity
of some proposed key personnel existed, the Department did not address this issue. For example,
the current and former directors of the Western Regional Technical Assistance Center had
associations with Prentice Hall, which included Prentice Hall publishing a reading text authored
by these individuals in 1997.14

In addition, as a part of the NCRFTA contract negotiations, the Department requested RMC
provide a list of all reading related contracts held by the staff of each technical assistance center.
The following contracts were reported to RMC: the Central Regional Technical Assistance
Center’s former director had been a paid consultant to the reading program Voyager prior to her
work with the Center; and the Eastern Regional Technical Assistance Center’s current director
has a current publishing contract for reading intervention materials with the publisher
SRA/McGraw-Hill. The Department did not follow up on these issues.

The Department’s main reason for reviewing technical assistance providers’ resumes was to
determine whether the proposed individuals had sufficient SBRR expertise and\or were being
paid with Reading First funds for performing other work related to Reading First. The
Department did not consider whether the proposed individuals had associations with reading
program publishers and or reading programs. In addition, the Department did not require RMC
to vet consultant resumes for issues of bias and lack of objectivity.

We concluded that the Department did not have controls to ensure potential sources of bias and
lack of objectivity were adequately assessed. In addition, the Department did not consider
associations with reading program publishers as a potential source of bias because officials
thought that it would limit the pool of technical assistance providers with expertise in SBRR.
Consequently, appearances of bias and lack of objectivity contributed to the complaints
surrounding the administration of the Reading First program and led to the perception that some


14
     In 2003, Prentice Hall published the fourth edition of this text.
Final Report
ED-OIG/A03G0006                                                                          Page 15 of 19

individuals may have been promoting the reading products they were associated with and may
have influenced the products that were being selected by SEAs and LEAs.

To respond to the ongoing perception of the appearances of bias and lack of objectivity, in a
letter sent to RMC, dated October 11, 2005, two years after the NCRFTA contract was awarded,
the Reading First Director (former) wrote –

        In providing this assistance, [technical assistance], it is essential that the National
        Center avoid all conflicts of interest among employees, subcontractors, and
        consultants who may have connections to particular instructional programs or
        materials used under Reading First. Although I understand that the National
        Center does not recommend programs or materials, it is important that steps are
        taken to avoid the appearance of conflicts of interest in this area. Individuals
        associated with the National Center or the three regional centers must recuse
        themselves from participating in technical assistance activities that appear to
        benefit commercial entities with whom they are personally connected.

As cited in Finding 1, federal laws and regulations applicable to this finding are in the DEOA,
and the NCLB Act, which contain provisions prohibiting the Department from exercising
direction or control over curriculum, or from endorsing any curriculum or program of
instruction. Also as cited in Finding 1, GAO’s Standards for Internal Control in the Federal
Government requires that agencies develop detailed policies and procedures, and practices to fit
their agency’s operations and to ensure that they are built into and are an integral part of
operations. Policies and procedures are a part of the control activities that enforce management’s
directives and are an integral part of an entity’s planning, implementing, reviewing, and
accountability for stewardship of government resources and achieving effective results. Control
activities help to ensure that actions are taken to address risk.

Since the DEOA and the NCLB Act prohibit the Department from endorsing or promoting
curriculum, it should have had a process in place to assess potential sources of bias and lack of
objectivity. Without an adequate assessment of bias and lack of objectivity for individuals
proposed to perform Department contract work, the Department could be placed in a situation
where the public could reasonably question and perhaps discount or dismiss the work performed
simply because of the existence of a potential bias. Further, the Department should ensure its
contractors also perform this assessment.

Recommendation
We recommend that the Assistant Secretary for Elementary and Secondary Education, in
coordination with the Chief Financial Officer –

3.1 	   Establish controls to ensure adequate assessments of bias and lack of objectivity for
        individuals proposed to perform Department contract work are performed by the
        Department and its contractors.

Department Comments

The Department concurred with the recommendation and provided proposed corrective actions
to address it. The Department’s response stated –
Final Report
ED-OIG/A03G0006                                                                     Page 16 of 19


       We acknowledge that the Department should have in place procedures to assess
       issues of bias and lack of objectivity on the part of potential technical assistance
       providers. However, the mere fact that certain individuals may have expertise
       with respect to particular programs should not preclude them from serving as
       technical assistance providers in any capacity. On the other hand, we
       acknowledge the Department should take steps to ensure that such individuals do
       not provide advice in areas in which they may have a financial conflict of interest.

OIG Response

The finding does not suggest that an individual should be excluded from serving as a technical
assistance provider due to the mere fact he or she may have expertise with regard to particular
programs. The main point of the finding, agreed to by the Department, is that the Department
should have had policies and procedures in place and should have taken steps to assess issues of
bias and lack of objectivity.
Final Report
ED-OIG/A03G0006                                                                     Page 17 of 19



                                   OTHER MATTERS 



In order for a reading program to be used in a state’s Reading First program, it must include
explicit and systematic instruction in the five essential components of reading (phonemic
awareness, phonics, vocabulary development, reading fluency (including oral reading skills), and
reading comprehension strategies), as identified by the statute. According to the Assistant
Secretary (former) for OESE and the Chief (former) of the Child Development and Behavior
Branch (CDBB) within the NICHHD at the National Institute of Health (NIH), a limited number
of reading programs themselves had been rigorously tested and proven to be effective when the
Reading First program began in 2002. However, since the initiation of the Reading First
legislation, there seems to be some movement to place more emphasis on the scientific evidence
of effectiveness of reading programs rather than just the inclusion of the five essential
components of reading. For example, a letter from Senator Richard G. Lugar to Secretary
Spellings, dated September 8, 2005, stated –

       In my view, the Department must do a better job of providing clear information to
       states and districts regarding the definition of research based programs. Programs
       that have been rigorously evaluated should be emphasized under Reading First. I
       would encourage the Department to send a mailing to its technical assistance
       centers and States directing them to fully consider the scientific evidence of
       effectiveness for programs, not just program components, in considering
       programs for use under Reading First.

       In addition, while a large portion of grants have already been awarded, perhaps
       state Reading First directors should be asked to revise criteria for awarding
       funding to better reflect the above definition of research-validated programs and
       to include competitive preference points to applicants proposing to implement
       research-validated programs.

In addition, the language included in the 2006 Labor-HHS-Education appropriations bill (Public
Law 109-103), dated July 2005, appears to support this point of view. The 2006 Labor-HHS-
Education appropriations bill stated –

       The Committee intends for funds available under the Reading First program to
       encourage and support the use of reading programs with the strongest possible
       scientific evidence of effectiveness. The Committee urges the Department to
       provide clear guidance to its technical assistance centers and the States to: fully
       consider scientific evidence of effectiveness in rating programs for use under
       Reading First; contemplate expanded lists of allowable programs that include
       innovative programs with scientific evidence of effectiveness; when awarding
       new grants, consider giving preference to those schools that select programs with
       strong, scientific evidence of effectiveness…and allow comprehensive reading
       programs that have scientific evidence of effectiveness to be implemented in full,
       as they have been researched, without modification to conform to other models of
Final Report
ED-OIG/A03G0006                                                                          Page 18 of 19

           instruction...The Committee notes that Reading First materials decisions are to be
           made at the school level, subject to the approval of the State.

This point of view is consistent with an August 2006 statement made to us, by the Chief (former)
of the CDBB within the NICHHD at the NIH.15 The Chief (former) stated that publishers
certainly have had the time to test their programs to determine causal effectiveness. He further
stated that by now, there should be a larger group of programs that have been tested. With the
impending reauthorization of the NCLB Act, he believes there should be a push towards the
“next level.” Changes should be made to tighten up the criteria under which programs are
eligible for funding. He also recommended, in an August 16, 2006, email to us, that –

           Federal funds should only be used for those programs, combination of programs,
           instructional strategies, reading methods, hybrid instructional models (Mathes et
           al., 2005), that have been found to be effective using experimental research
           designs that can determine the causal impact of the programs, strategies, methods,
           and/or models on student learning and achievement in reading. Effectiveness
           should be established using the most rigorous experimental designs that provide
           the strongest evidence of causal validity with priority placed on randomized
           clinical trials (RCT) and regression discontinuity studies. Quasi-experimental
           research designs could be utilized when randomization is not possible but with the
           recognition that causal validity must be interpreted with caution. Studies of
           effectiveness should also address the issue of intervention fidelity, the reliability
           and validity of the measures employed, the extent to which relevant people,
           settings, and measurement timings are included in the study, and the extent to
           which the effects of the program, strategies, methods, and/or models can be tested
           with subgroups within the population under study.

Since the legislation is scheduled for reauthorization in 2007, Congress has an opportunity to
clarify whether reading programs should be funded on the basis of program effectiveness.
Congress will also be able to determine what it means for a program to be “based on scientific
reading research” and whether this definition is consistent with program effectiveness.
Information obtained and deliberated upon, as part of the reauthorization process, should enable
Congress to make the legislation more responsive to the needs of children by ensuring that
quality programs are funded with Reading First funds.

We suggest that the Department and Congress, during the next reauthorization of the law, clarify
whether reading programs need to have scientific evidence of effectiveness in order to be eligible
for funding under Reading First.




15
     The former Chief was a drafter of the Reading First legislation.
Final Report
ED-OIG/A03G0006                                                                                    Page 19 of 19



                     OBJECTIVE, SCOPE, AND METHODOLOGY 



The objective of our audit was to determine whether the Department carried out its role in
accordance with applicable laws and regulations in administering the RLAs and related meetings
and conferences, the NCRFTA contract award process, and its website and guidance for the
Reading First program. Our audit was limited to the review of the Department’s administration
of the RLAs, the RLA Handbook and Guidebook, its review of RMC’s technical proposal for the
NCRFTA contract, its approval process for NCRFTA contract technical assistance providers, its
website, and its Guidance for the Reading First Program, dated April 2002. Our audit covered
the period from August 1, 2001, through September 30, 2004.

To accomplish our audit objective, we interviewed Department officials in the Reading First
Program Office and in the Office of General Counsel. We interviewed the former Assistant
Secretary for Elementary and Secondary Education, the former Chief of the CDBB within the
NICHHD at the NIH, and a former Education and Workforce Committee staffer. We also
interviewed officials from NIFL, RMC, and persons involved in the RLAs, including speakers,
panelists from one session at the RLAs, entitled, “Theory to Practice: A Panel of Practitioners,”
and participants. We randomly selected 7 of the 81 participants to interview from the first RLA,
5 of the 172 participants from the second RLA and 5 of the 165 participants from the third RLA.
Our sampling objective was to randomly identify individuals who participated in the RLAs in
order to obtain their opinions on the information presented at the RLAs. We also interviewed
two reading experts familiar with SBRR and the three-tier model.16

Additionally, we reviewed the RLA Handbook, the RLA Guidebook, the Department’s Guidance
for the Reading First Program, dated April 2002, and the Department’s Reading First website.
We also reviewed raw video footage taken at the RLAs. In addition, we reviewed NCRFTA
contract documents, and Department correspondence related to the audit objective. Finally, we
reviewed RLA Participant Evaluation and Comment forms for all three days, for all three RLAs.

Review of internal controls was not an objective of our audit. However, we identified a lack of
internal controls as a cause of the deficiencies noted in the report.

Our fieldwork was performed from January 25, 2006, through, September 8, 2006. We
conducted an exit conference with the Reading First Program Office on September 27, 2006.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.




16
  The Three-Tier Reading Model provides intensive early intervention for the students most at risk for reading
difficulty. It consists of three tiers, or levels, of reading instruction: primary, secondary, and tertiary.
                      Attachment 1 - RLA. 1 f                     Oay 2, Participant Evaluations


                                   The Secretary's Reading Leadership Academy 

                                           Day Two - January 24, 2002 


                                           Participant Evaluation 

                                             (74- respondents) 

1.   How useful was the information in each of the following sessions to helping you in your work?

                                                Not at all                                 Very        No
                                                 useful                                   useful    Response
                                                      1                 2         3         4
 Effective Instruction - Presentation             ( 8%)             ( 8%)       (30%)     (51%)       ( 3%)
 Effective Instruction -Activity                  ( 4%)             (14%)       (38%)     (32%)       (12%)
 Reading Programs ­ Presentation                  ( 7%)             (16%)       (18%)     (56%)       ( 3%)
 Reading Programs ­ Activity                      ( 4%)             (15%)       (32%)     (36%)       (13%)
 Professional Development - Presentation          (       ­   )     ( 1%)       (15%)     (80%)       ( 4%)
 Professional Development - Activity             ( 1%)              ( 7%)       (38%)     (43%)       (11%)
 Assessment ­ Presentations                      ( 3%)              (10%)       (30%)     (55%)       ( 2%)
 Assessment ­ Activity                           ( 3%)              (10%)       (40%)     (36%)       (11%)
 Theory to Practice Panel                        (18%)              (21%)       (25%)     (26%)       (10%)

2.   How would you rate the quality of each of the presentations?

                                                                                                       No
                                                 Poor                                   Excellent
                                                                                                    Response
                                                      1                 2         3        4
 Effective Instruction - Presentation            (10%)              ( 8%)       (26%)    (49%)       ( 7%)
 Effective Instruction -Activity                 ( 1%)              ( 8%)       (32%)    (31%)       (28%)
 Reading Programs - Presentation                 ( 6%)              (21%)       (27%)    (53%)       ( 2%)
 Reading Programs - Activity                     ( 1%)              (11%)       (27%)    (32%)       (29%)
 Professional Development - Presentation         (    -)            (   -   )   (14%)    (80%)       ( 6%)
 Professional Development - Activity             (    -       )     ( 6%)       (30%)    (36%)       (28%)
 Assessment - Presentations                      ( 3%)              ( 8%)       (32%)    (49%)       ( 8%)
 Assessment - Activity                           (    -       )     (10%)       (29%)    (40%)       (21%)
 Theory to Practice Panel                        (15%)              (18%)       (27%)    (25%)       (15%)
                                                     COMMENTS - DA Y TWO


     3.    If you have any comments, insights, or suggestions about this portion of the Academy, or wish to
           provide explanations of any of your answers above, please write them below or on the back of this sheet
           if more space is needed.

     ..    We've gotten lots of work done during the activity time ­ good idea.

 "         Excellent format for presentations and activities. I appreciate the notebook of information as well.

 "         This information was very practical. The activities were good for states to do and I plan to use them with local
           schools to plan for their reading programs.
 ..        Time to discuss between presenters was helpful. I especially appreciate the attention to criteria for evaluating
           programs and assessments.

 ..        "Networking" is better than activities.

 ..       Wonderful Academy. Great presenters.

 "         It would have been more helpful for the panelists to discuss the steps they took to reform their schools.

 ..       Great message and offers of support. Thanks.

 ..       Principal and Superintendent leadership and education was omitted.

 ..       How do we support weaving this quilt together? No just looking at individual pieces. Could we see an example
          of a good classroom engaging in all of these activities during a 2-hour time block? This would be very helpful to
          take back to the State level.

 ..       For states with rural populations ­ it would be helpful to have panelists (at least one) from a small school district

\It       The panel was fine but it doesn't address the challenges of rural schools and states with limited resources etc.
          Consider including examples from the unexpected places ­ MT, 10, NB, etc.

..        Excellent information.

..        Excellent speakers ­ effective topics ­ well done.

..        Need more opportunities to ask questions to help us relate the information provided to the individual states.

..        Great session. Please make sure the assessment section does not become a burden. Most districts are testing
          too much. (Show us how to assess smarter). I enjoyed the luncheon speaker.

..        The stories were hopefully and heart warming but these folks' knowledge base is deep in DI but not broad
          enough for what we've heard over the past two days.

..        So very helpful- lots of information presented "intensive and explicit" ­ Thanks. Panel didn't measure up to the
          rest of the Academy speaker/activities. Panelists were promoting programs. Bragging/sales pitching not useful
          to this group. There are no silver bullets. The important thing is to know what the skills are and use that as a
          frameworn.

          Very intensive, engaging and practical. Anxious to get the grant application so our REA plan can be revised, etc.




                                                                 2

                                                          COMMENTS - DA Y TWO


      .. 	    I am shocked that there is a supposition that a program is the magic bullet. _      did a great job about talking
              about the components of effective instruction. The conference was excellent until the panel.

     " 	 Thank you. The presentations have been clear and concise. The material is thorough and the pace is assertive.
         I feel you have used my time very well and that I have benefited greatly. The last session however - Theory to
         Practice Panel - was very poor. It sounded like a sales job for a program as opposed to a description of
         enabling teachers to teach reading. Given the quality of the day, this was a significant disappointment.

     ..      .shrouds the whole process in politics and the fiag. That is a turnoff. The other presenters were much more
              credible.

     ,. 	 Panel was poor. Not the fault of the panelists but of the conference planners.
     " 	 Think you are confusing participants with reading instructors for at risk learners with reading instruction for
          normal and above readers. Reading First is for high-risk learners - make that point! It is impossible to do all this
          for all learners and all learners do not need this intense direct instruction.

     .. 	     Please end rneetings by 5:00. Participants can absorb just so much.

     .. 	     Panels, especially at the end of the day, need no more than two members.

     .. 	     Using technology, this conference - because it was not in any way interactive between the speakers and the 

              audience (except the panel) - could have been provided without a three-hour fiight to ~C. 


 .. 	        Q and A following each presentation would have improved the quality of the conference

 .. 	         Good facility - very well organized

 .. 	        Too bad the guidance and/or the application was not available.

 .. 	        Too much redundancy between sessions, especially last two. Would like more information on roll-out 

             implementation and policy implementation of Reading First. 


 .. 	        Since the Panel focused on 01 it would have been helpful to have more information on the specifics of that
             program.

 .. 	         I am concerned that the presentations were nothing more than "Reading Instruction 101" in 3 hours. The
             presenters give the material as if the audience is not knowledgeable or aware of any of the research or trends in
             reading instruction. Often, assertions were supported by claims of being SCientifically based research. These
             assertions did not include references to other valid research that applies to many children, but were distained by
             the speakers as having no value. Please don't cite the NRP as authors of original reading research. Give
             citations that include the original sources. The presentation on assessment seemed to advocate professional
             practices that are at a higher level than the other presentations.

..                                                        especially interesting and engaging presenters. The issue of textbook
                                                    rnTl'M,onTion is a critical issue to emphasize.

It           The luncheon speaker was excellent. The panel was a great idea.

..                              nally addressed some meat. The moming sessions were a waste of time. I felt like it was
                  I a pus    r a national curriculum. I think I'll go buy shares in Open Court' The p-d and assessment
             sessions had information I can share with colleagues in my state.


                                                                     3
                                                      COMMENTS - DAY TWO


           Pacing was well done! Panel was a sales job for Direct Instruction and Open Court. We should be pushing an
           effective framework for instruction utilizing multiple sources of materials and helping teachers to deliver effective
           instruction through professional development on research based instruction. There are no silver bullets. I have
           used Reading Mastery (long term results were not able to hold initial progress gains) and Open Court. The key
           is effective instruction and well trained teachers, not a program. Use program name strengths and weaknesses.
           Open Court schools' progress held! At end of 5 years Reading Mastery schools were still at the bottom of the
           district. Reading Mastery offered these schools structure and on-task delivery of instruction with teacher
           training. This can be done with any program, if you train and monitor instructional delivery. Professional
           dev~lopment, monitoring, assessment and also administrator training (principals) very important.

     ..    Presenters/presentations have affirmed what our state is doing or currently thinking about and discussing how to
           do. I'm unsure how all this is going to emerge in the grant process. I hope states and school districts will be
           allowed significant freedom or ftexibility in how they are allowed to plan and implement the provisions of "No
           Child Left Behind" - with strong accountability measures for improved student reading achievement built into the
           plan. I don't believe a "packaged program" will bring about improvements that will be sustainable over time.

           I would have been less disappointed with the way Day 2 ended IF the aim of the presentations thus far had been
           front-loaded with the truth - that a scripted program was going to be a requirement. I was so hopeful from what
           I'd heard. I thought our schools were going to get the funding needed to train (re-train) teachers to provide a
           truly balanced reading program based on the needs of students. I fear we will see lots of dollars going to
           companies to bring a package in, possibly get short-term results, and be abandoned after a few years when
           improvements prove to be short-lived.

 .         I appreciate the activity; space for thinking, specifically about our current and efficacious systems, is worthwhile
           and important. Thanks.

 .          Surely, I wouldn't categorize the pre-panel presentations as based in THEORY/ or about THEORY. Humor?
            Theory is belief, yes? My intention has been to listen to the content presented here and then to consider the
           multiple perspectives and theories of the teachers, administrators, and parents so that we can become a
           community of learners and practitioners while living READING FIRST. Coaching is very effective in South
           Dakota with our Reading Initiative - it's good to hear that coaching is being used in other states. Open Court,
           Direct Instruction - canned programs!? This scares me to death. Are (we) "you" trying to "teacher proof'
           instruction? Why not provide good professional development to teachers about good reading instruction rather
           than have them implement a scripted reading program?

.          Branch out past Texas and University systems. Some of us have never left the phonics approach! Presenters 

           were well meaning but today's agenda took on an attitude that only a few people have the answers - that's 

           insulting to states that have consistently scored at the top of the nation. 


..         Arrogant! You must think us stupid and uncaring. What else would explain how you talk down to us, preach to 

           us, and treat us like morons. I don't experience this level of a "sell" job when I buy a car. 


.. 1~~ptrem~ly.disappointed thpt USDE ~as decided to tell us what programs to use and ~hat te~ts to use             .
          Without regards to the state standards With assessments that have been developed. Is thiS a National Readmg
          Program? It is always disheartening that USDE sees no value in REA - you should look at the state's results.

..         The activities by state were as useful as we made them. All of the presentations had useful research data but
          tthey w~re"po.t.unbjased. Reading Programs appeared to be more of an advertisement for Open Court The
           as'sessmentne~s to be able to screen and diagnose yet a prescribed favorable list of "tools' are norm­
           referenced instruments that are not aligned with specific state standards etc




                                                                  4
                                                     COMMENTS - DA Y TWO


     ..    The repetitive nature of the presentations was very helpful -- in other words ­ constantly talking about daily
           assessment & professional development, the five pillars of effective instruction is helpful for those who are on
           board, and those who may not be there yet! The panel was excellent -­ to see different regions and different
           perspectives can be successful with this program is extremely gratifying ­ something that a Nebraska or a South
           Dakota can't argue with!

 ..        Please bring clarity to the types of assessments that are appropriate for primary children with respect to reading.
           Should the early assessments be focused on predictability or achievement?

 ..        Please do not promote a program (Open Court) (Direct Instruction). That is not the Department of Education's
           place to do. Please don't talk down to us. Many of us know a lot about teaching reading and assessment. Is
           "direct instruction" a buzz word for phonics or does it mean intentional teaching? Panel rally pushed "phonics".
           This is in contrast to the "National Reading Panel Report" and "Put Reading First". These documents promote
           phonics as part of a program (1 part of 5) and do not dictate how phonics is taught.
 ..        Many of the people who are in attendance know the research and the focus of the Reading First Initiative. Some
           of the state leaders would benefit more from the mechanics of what the states need to do to bring this important
           initiative home.

 ..        I think that it would be very useful for both policy makers and practitioners to see what is happening in the rest of
          the classroom during the films. They seemed to ignore or give the impression that no other students are in the
          classroom when we know that these teachers have the responsibility of up to 25 or more students. I am left with
          the question ­ Where are these kids? What are they doing? and What does this well versed team's vision of an
          inclusive ­ not fragmented lesson of these Essential Components of Phonemic Awareness, Phonics,
          Comprehension, Fluency, Vocabulary and Word Study, look like? This could be really useful. I am also left
          wondering ... the subject of ESEA three years of Bilingual support and Reading First ~ It seems that this topic of
          instruction is very important. How to specifically reach and further the support of these students. This is
          essential. For many of our schools this legislation tones the bell.

..        Video clips showed fragmented instruction contrary to ideal comprehensive classroom instruction for reading.
          What about a systemic sampling of a 90 minute literacy block or following individual children through reading
          instruction in a 24 hour period.

..        I enjoyed the speaker that presented during lunch. It was a nice break and very inspiring.

..        Perhaps the time allotted to the activities could be shortened a bit. Thirty minutes and 15 minutes for a break
          makes the day drag on.

..        The constant invasion of video cameras was very annoying and intrusive.

..        I totally disagree with your assumption that grapho-phonemics is the primary cueing system in decoding.
          "Scientifically-based" research, grounded in psycholinguists, clearly indicates that grapho-phonics is one cuing
          system but is not the primary one (see Goodman, for example). Your model ignores a significant body of
          research simply because it is not currently in favor politically. Shame on you. In my work with children, we use
          phonics as a means to initially decode words, but if a word cannot be decoded using phonics we use picture
          clues, structural analysis, and semantics to help us make a prediction about the unknown word. I don't care how
          much "scientific research" your model flaunts. I will not accept grapho-phonics as the primary cueing system. I
          know (as a result of my doctoral work in reading/language) that you can find research to support practically any
          point of view, and I do not! can not accept yours on this issue. Where is writing instruction in your model? It is
          my sense that you are ignoring significant "scientific research" in this area.




                                                                 5
                                                  COMMENTS - DA Y TWO


.. 	 Reading Programs presentation would have been better with examples included in handouts. Program review
     model is somewhat too simplified considering the complexities of teaching a comprehensive curriculum.
     Concept of comprehensive, supplemental, or intervention curriculum is useful.

.. 	   Professional development session was excellent._ examples from her work with DC teachers provided
       great examples of the professional development research in practice. Very helpful and important.

It     Videos in Effective Instruction presentation were very useful to see. Speaker's use of overheads and videos was
       very effective.

OJ     Regarding the presentation on reading programs - the presenter (first) seemed scornful of practices that are
       inconsistent with the research. Our job is to win teachers over, dance with them, help them see what they're
       doing well (based on assessments) and what they need to change. Research-based practices will be better
       implemented if we honor the hard work of teachers and help to move them toward understanding research and
       assessment-based teaching.

.. 	   I am an advocate of RB teaching. This worl< is difficult enough. We need to work with teachers.

.. 	   I feel that while giving a broad sense of the effects of Direct Instruction in the school, we did not get the whole
       picture.

.. 	 Direct Instruction and phonics-based programs are a pre-k - grade 1, or grades 1-2, type intervention that do not
     have the content focus needed for more fluent readers. Did the schools use Core-Knowledge or other content
     curricula? What kinds of parent or community involvement helped to spur their success? The full story will
     provide everyone with a real picture of change not just SBRR. There seems to be a double message at the
     Academy - We are not pushing phonics only on the one hand and then talk about whole language people being
     converted over to phonics. I found that confusing. What happened to balanced reading instruction as the core?

.	                                                especially interesting and engaging ~he issue of textbook
                  espec                       n/OnTl,mis a critical issue to emphasize. _ _was an exciting and
       enthusiastic presenter.                       an effective convincing presenter. The luncheon speaker was
       excellent. The panel was a great




                                                              6

                            Attachment 2 - RLA 2, Day 2, Participant Evaluations

                                          The Secretary's Reading Leadership Academy 2 

                                                  Day Two - February 14, 2002 


                                                      Participant Evaluation 

                                                        (117 responses) 


 1.    How useful was the information in each of the following presentations/activities to helping you in your work?

                                                        Not at all                           Very useful       No
                                                         useful                                             Response
                                                              1
                                                                            2          3            4
        Effective Instruction - Presentation               (0)         (15%)       (35%)       (48%)          (2%)
        Effective Instruction -Activity                    (0)         (17%)      (41%)        (28%)          (13%)
       Reading Programs ­ Presentation                   (2%)          (18%)      (32%)        (45%)          (2%)
       Reading Programs ­ Activity                       (2%)          (18%)      (37%)        (28%)         (15%)
       Professional Development - Presentation            (0)           (9%)      (30%)        (57%)          (2%)
       Professional Development ­ Activity                (0)          (15%)      (36%)        (32%)         (17%)
       Assessment ­ Presentation                         (2%)          (17%)      (36%)        (44%)           (0)
       Assessment ­ Activity                             (3%)          (18%)      (33%)        (28%)         (17%)
       Theory to Practice Panel                           (0)          (9%)       (28%)       (59%)          (2%)


2. How would you rate the quality of each of the presentations/activities?

                                                        Poor                                Excellent         No
                                                                                                           Response
                                                          1             2          3            4
      Effective Instruction - Presentation               (0)           (9%)      (33%)        (51%)          (5%)
      Effective Instruction -Activity                    (0)          (14%)      (21%)        (25%)         (22%)
      Reading Programs - Presentation                    (0)          (14%)      (32%)       (48%)           (8%)
      Reading Programs - Activity                        (0)          (13%)      (32%)       (26%)          (27%)
      Professional Development - Presentation           (2%)          (9%)       (27%)       (57%)          (4%)
      Professional Development - Activity                (0)          (14%)      (31%)       (31%)          (25%)
      Assessment - Presentation                         (2%)         (19%)       (34%)       (43%)          (2%)
      Assessment - Activity                             (2%)         (15%)       (27%)       (28%)          (27%)
      Theory to Practice Panel                          (0)           (6%)       (26%)       (65%)          (3%)
                           The Secretary's Reading Leadership Academy 2 COMMENTS - DAY 2


 3. 	 If you have any comments, insights, or suggestions about this portion of the Academy, or wish to provide
      explanations of any of your answers above, please write them below or on the back of this sheet if more space
      is needed.

 • 	 We are getting conflicting messages:
       o 	 "Use Open Court" vs. "Open Court doesn't work"
       o 	 "Use Direct Instruction" vs. "Direct Instruction is not on the list of comprehensive
           programs"
       o 	 "Don't use Reading Recovery" vs. "Reading Recover might be appropriate"
      o 	 "Don't use running records" vs. "Running records can be used"

  • 	 In late November,                           USDOE would be providing a list of "approved 

     programs". "Is that still true"? How should state applications include that information? 


 • 	 Presenters do not speak with the final authority of USDOE General Counsel. This is a high level
    audience and, as such, demands authoritative answers.

 • 	 Even though the quantity of information was effective, the delivery and quality could be 

    improved. 


 · 	 _ i s shrill and too preachy - she can be passionate without being a demagogue. The
   presentation on methods was too elementary for a room full of reading specialists. The time could
   have been better used than telling us what a Venn diagram is for or using pages from a book that is
   unknown to us.

 • 	 The timeline is very short to tum these plans around.

• 	 First, our state has been doing CBMS and"DIBLES for years and our scores in reading have 

   declined for 10 years in a row! The exampTes from the textbooks were absolutely disgraceful! I 

   loved the message about professional development. This is so crucial- need to strengthen how to 

   monitor implementation and use implementation data to provide additional staff development 

   support. 


• 	 Questions in activities need to vary - be flexible

• 	 All research about effective programs and professional development needs to be presented.

• 	 What is the relationship of publishers (and McGraw-Hill, in particular) to the administration?

• 	 Not enough time for activities to be useful

• 	 Good day - need more team time

• 	 Handout these forms earlier in the day so we don't forget/confuse different speakers by the end of
   the day. Activities aren't really addressed; require more time than allowed; but nice to have
   opportunity to talk/respond; may be more effective to structure discussion and provide groups with
   opportunity to raise questions to ask afterwards. Too hard to focus to get anything done but
   discussion is valuable.
                                                      2

                        The Secretary's Reading Leadership Academy 2 COMMENTS - DAY 2



  • Please replenish water and candy supply

  • 	 Need to provide longer break after lunch so we can get some fresh air and walk or something that
     gets us moving.

  • Sorry [for the "2" ratings]

  • The accountability/assessment presentations have been the least effective.

 • 	 Excellent day, unfortunately one of Georgia's members is here to figure out how to divert Reading
    First money from their intended purpose to other state programs that need money due to the budget
    crunch. She is quite negative and is influencing our group negatively.

 • As a team, we needed considerably more time to work together

 • Please be more specific when citing specific research. To what research are you referring?

 • 	 Why are certain approaches disregarded, e.g. Four Blocks despite their alignment with the five 

    essential components? 


 • 	 Wonderful day - Examples of specific programs was great - examples for professional
    development would also help.

 • Address problems head-on, e.g. Reading Recovery

• More time for states to work together. There is too much to process - we need time now.

• Cross-state collaboration time

• 	 Time for state activities needs to be preserved. The presenters can stay with in shorter periods to
   ensure teams have more time. Getting state leadership, district leadership, and school leadership at
   the table is too difficult to achieve to cut short

• I did not agree with some issues but the material and presentations were excellent.
  at lunch, did a great job also.

• I enjoyed the videos, the "frankness" of the presenters, and the success stories!

• Excellent

• Superb day

• 	 Presentations tend to focus on basal programs - perhaps failing to distinguish among components
   of a curriculum (scope and sequence) that uses a particular constellation of methods implemented
   in specific materials. These could be bundled as a basal system - but really could be developed.



                                                  3

                          The Secretary's Reading Leadership Academy 2 COMMENTS - DAY 2

  • 	 Thank you. Excellent planning and certainly was discriminating - that is, there was a certainty of
     what a core reading program must include.

  • 	 Thanks for the variety of voices - the "experts" from researchers to teachers. I wish we knew
     what research actually exposes reading programs' weaknesses. For example, accelerated reading, 4
     Block, and other "unscientifically" based research programs or are they "unscientific" or just flush
     with the five components?

  • If there are specific programs and materials, we need to know. Be specific.

  • 	 An annotated list of effective early literacy assessments would be helpful.

 • 	 It would be interesting to read other state plans. How are others reacting to the information 

    presented? 


 • 	 I would love to have a list of current supplemental programs that could be used in Reading First
    (e.g. Reading Recovery, Spalding, Project Read) etc.

 • 	 Need connection to language acquisition

 • Thank you for a good day!

 • 	 Information from the panel was useful- Please notice they all show that A SINGLE APPROACH
    WILL NOT WORK WITH ALL STUDENTS. Although speakers said this in one way or another
    there was an underlying message conveyed that there is one program we will recommend after
    we've built up to it.

 • 	 Are you overlooking the importance of a single well-defined mission for schools combined with 

    specific action plans and frequent checking for progress? For instance, if data on current status of 

    reading programs is available, why did you focus on 1996 data? 


• I really enjoyed the professional development section as it addressed best practice!

• 	 The reading program felt more like a "menu driven" list than helping people to be savvy research 

   consumers 


• 	 Flexibility in funding literacy-rich envirouments are critical outside the classroom (home).

• Early assessment (K-2) must be controlled to ensure the results are not misused.

• 	 Professional Development plans need to be customized for teachers as well as principals.

• The activities are difficult because it is difficult to hear each other.

• 	 All of the presenters were very knowledgeable of the research and best practices.

• 	 More time for teams to meet

                                                    4

                       The Secretary's Reading Leadership Academy 2 COMMENTS - DAY 2

• Need all presentation slides be made available at conference (disk? CD Rom?) or at least on
  D.O.E. webpages.

• 	 Not enough quality time to dig deeper into developing the initial parts of our plan.

• I think RMC did a poor job of defining how we were to do the "activity"

• Any information you can send to Puerto Rico that is translated?

• 	 Need more space. More soda and water out of meeting area. Activities seem repetitive, need to
   build toward plan development.

• Thank you for organizing such a dynamic panel!

• I still am not clear about the requirements for the state or district proposal

• Are states to name specific programs? Assessments?




                                                 5

                            Attachment 3 - RLA 3, Day 2, Participant Evaluations

                                    The Secretary's Reading Leadership Academy 3 

                                             Day Two - February 21,2002 


                                                 Participant Evaluation
                                                       (99 responses)

 1.   How useful was the information in each of the following presentations/activities to helping you in your work?

                                              Not at al/                                  Very useful        No
                                               useful                                                     Response

 Effective Instruction ­ Presentation           (1%)             (9%)          (26%)         (59%)          (2%)
 Effective Instruction ­ Activity               (1%)            (B%)           (31%)         (44%)          (7%)
 Reading Programs ­ Presentation                (5%)            (19%)          (28%)         (45%)          (2%)
 Reading Programs ­ Activity                    (2%)            (18%)          (37%)         (34%)          (6%)
 Professional Development - Presentation         (0)             (7%)          (21%)         (65%)          (3%)
 Professional Development ­ Activity            (2%)             (7%)          (25%)         (52%)          (10%)
 Assessment- Presentation                       (2%)            (16%)          (28%)         (47%)          (4%)
 Assessment ­ Activity                          (3%)            (13%)          (27%)         (42%)          (12%)
 Theory to Practice Panel                       (1%)            (12%)          (16%)         (48%)          (21%)



2. 	 How would you rate the quality of each of the presentations/activities?

                                                Poor                                       Excellent        No
                                                                                                         Response

 Effective Instruction - Presentation           (1%)             (9%)          (22%)        (59%)           (6%)
 Effective Instruction - Activity               (1%)            ('10%)         (31%)        (41%)          (15%)
Reading Programs - Presentation                 (7%)            (13%)          (21%)        (49%)           (8%)
Reading Programs - Activity                     (1%)            (12%)          (33%)        (36%)          (16%)
Professional Development - Presentation          (0)             (5%)          (22%)        (61%)           (9%)
Professional Development - Activity             (1%)             (9%)          (29%)        (39%)          (19%)
Assessment -- Presentation                      (6%)            (12%)          (21%)        (52%)           (6%)
Assessment - Activity                           (3%)             (9%)          (25%)        (42%)          (18%)
Theory to Practice Panel                         (0)             (6%)          (18%)        (52%)          (21%)



3. 	 If you have any comments, insights, or suggestions about this portion of the Academy, or wish to provide
     explanations of any of your answers above, please write them below or on the back of this sheet if more space
     is needed.

.. 	 Professional develop                     outstanding

.. 	 Thanks for luncheon speaker_ So great! Wish we had heard more from him"
                            The Secretary's Reading leadership Academy 3                   COMMENTS - DAY 2

     ..     Thank you so much for all of your hard work. We will all benefit from it greatly.

     III    What is the study from which the Hartsfield Elementary data came? Does the study meet the guidelines of research­
            based evidence? "Experts" shouldn't cite "research" without giving the citation.

     ..     State activities seem to assume one has a focused group and/or a facilitator that can make the sessions productive.
            have not found that to be the case and as a result have experienced frustration with these activities.

     ..     I felt like I was in a Direct Instruction sales pitch all day Thanks for including at least one other program.

     ..     Very infonmative and inspiring presentations.

     III    Very encouraging true stories by the panel.

     III    I think it would have been helpful to have an outside "coach" to sit at each/our state table to keep states on task!

 ..        Very well organized.

 ..         Lunch speaker was very enjoyable.

 ..        Well planned. Very smooth, even though the audience was a little hard to corral after caffeine!

 ..        I feel it is wrong to showcase one specific program (OJ) excessively at least three times. There are many SBRR
           programs.

 ..        Whee-lots of infonmation to think through. What's your follow-up, other than receipt of grants?

 ..        Well done. I'm very highly satisfied.

 ..        This was a great day _. very useful, specific and practical, overall picture made clear, etc.

 ..        Was not what we expected.

 ..        Videos were very helpful.

..         I loved the videos.

..         I felt as if this Reading Leadership Academy was rather heavy-handed. I am not at all certain that there is the kind of
           "convergence" in the research that people keep insisting upon. Additionally, I felt as if many of the speakers were
           preaching to the choir. The people sitting at these tables wrote a good deal of the research you're citing. Are you
           certain you understand your audience? Where were the dissenting voices? Seems to me they are being silenced!

..         _ w a s excellent!

..         Lunch keynote- outstanding - please keep him up front. He is a link from theory to practice. Teachers and prinCipals
           would be more apt to listen to him than researchers.

..         Very infonmed and helpful information for educators to learn and use for their own decision making in their own schools.
           I'm excited to share them with my own staff.

..         I especially like the success stories at the end of the session.


                                                                      2
                            The Secretary's Reading leadership Academy 3 COMMENTS - DAY 2

     .. 	 _                 speech was riddled with mischaracterizations.

     .. 	 The infonmation on effective instruction and reading programs was done very quickly and this diminished the
          effectiveness. There was an overemphasis of phonemic awareness and phonics which left the impression that this is
          the bulk of the effective reading program.

     .. 	 Multiple perspectives needed.

     fl)    While all the elements are given equal weight in Reading First - the emphasis was skewed. The message to the group
            seemed that some areas drive all others. Scientific research is important but there's a lot of research out there which
            needs to be included and honored. Intangibles will also always be there.

     .. 	 Today's sessions may have given an excessive endorsement to Direct Instruction. Are there other good reading
          initiatives? Can a case be made for not spending district or school funds on a commercial product? Three of the four
          presenters endorsed D.1. Is this an excessive government endorsement of one company?

     It     Presentations helped to focus the state discussions. 


 ..         The presenters pushing phonics ought to look at the research concerning a balanced approach and the other four 

            strategies.

 ..         The panel was a nice bonus! They produced a first··hand experience that had credibility.

 ..        A well,organized, infonmative day. The intenmittent activities for the state teams are very useful. Thank you.

 41        I want more than increased test scores. Kids need experience in thinking. They need to be able to conceptualize
           outside of how they are tested, so they can replicate their knowledge in a variety of situations in the real world. Kids
           need to become accountable for and excited about their own learning. Can't do it without increased test scores, but that
           just indicates kids have the tools. Do they know how to use them? Do tests measure that?




e
 e



 e
           to this audience.

           Presentations such
           audience.
                                 as_
           The details of specific instructional strategies (as in the "reading program" presentation) are, in my opinion, not relevant


                                              which focus on research, theory, and critical concepts are relevant and target this


           I've appreciated the speakers' willingness to answer questions during the activity periods. Thank you.

..         Not new information and I don't agree with all. Helps see what's needed for grant. I appreciated time to work together
           very valuable.

..         Quality (presentations) - you all are polished!

..         Please give us the citations re the studies referenced in the assessment presentation - may we assume these studies
           fit the criteria for scientific reading research? The citations will help us.

..         How is it that the Spanish version of the DRA is "under review" but not the English language version?

..         Overall, very good.

e	         Too much presentation/PowerPoint. Not enough activity time.


                                                                     3
                             The Secretary's Reading Leadership Academy 3                   COMMENTS - DAY 2

     .,.     Had the proposals been available we could have planned more constructively. 


     .,.     I personally got the most out of the panel at the end of the day. The opportunities for interactions with our state group 

             between each presentation was very helpful. 


     ..      Not enough time for state activities. 


     ..      Well organized - good for team members to hear same message. 


     @) 	    Well organized day - extremely helpful. Thanks!

     .. 	 The luncheon speaker                            was absolutely excellent!!

     .. 	 Most of what was presented could have been shared in a handout. No suggestions or real questions appear 

          welcome... just willingness to clarify directives and promote certain sanctioned programs or materials or pedagogy. 


     .. 	 Reading PowerPoint slides is not appropriate staff development. The luncheon speaker (a private school master) was
          the best of the day. Is that the message about public education you want to send'? You employ smart people who
          could answer the hard questions. Let them invite the discussion.

 II'         Effective Instructional supplementary information in the effective instruction session is extremely beneficial.

 .. 	 Programs: The classification process may assist our districts in analyzing the benefits of available texts. With local 

      control in a textbook state, support and guidance through the process is necessary. 


 .. 	 Assessment: Looks a lot like testing. What happened to training classroom teachers with on-going, daily/weekly 

      assessment strategies to infornt instruction. Waiting six weeks or longer to assess, at the early grades, could be 

      wasting valuable time! 


 til        Videos are great!

 ..         Presentations were so rote - we could have just read the slides .

 .,         Too much that is scientifically validated that was left out. Panelists had a tough time with questions, which is never a
            good sign. DOE people, however, were very helpful, and the meeting was well organized.

 • 	 A broader range of scientists needs to be called into the conversation!

 .. 	 I was not happy with the emphasis on using decodable text. There is no research information that supports the use of
      decodable text. (according to Allington)

«> 	        I feel that we need to use text based on what we think our students can relate to. We shouldn't use mandated
            programs with preSCriptions on what a teacher should say and do.

.. 	 The handouts and overheads are all very professionally done!

..          Most of the presentations were so very fast paced, but perhaps it is needed to show the big picture in the 2.5 days.
            like the time to work at the state groups. it was a good time to process everything.

..          Great day!

..          Not enough time for activity.

                                                                       4
                                                                                                                              ~
                                             Attachment 4 - Auditee's Comments                                                I,.
                                                                                                                              I

                                                                                                                           I  !
                          UNITED STATES DEPARTMENT OF EDUCATION                                                               ~ ..



                                            WASHINGTON, D.C, 20202- _ _
                                                                                                                           r
                                                                                                                              ~.
                                                                                                                              t
                                                                                                                              t;;
                                                                                                                              f
 MEMORANDUM                                                                                   JAN 3 1 ZGG?
                                                                                                                           I
 TO:              Bernard Tadley .
                  Regional Inspector General for Audit                                                                     r
 FROM:

                                                                                                                          Ii
 SUBJECT: Draft Report: Review of Selected Aspects ofthe Department's                                                      !

          Administration of the Reading First Program", ED-OIGI A03G0006 


We have reviewed the draft audit report entitled ''Review of Selected Aspects ofthe 

Department's Administration of the Reading First Program'~, ED-OIG/A03G0006, and 

appreciate the opportunity to provide comments on behalf of the Office of Elementary                                      r

                                                                                                                          r
and Secondary Education. The Office ofthe General Counsel concurs with these                                              }
comments.                                                                                                                 I
                                                                                                                          i
                                                                                                                           f
General Comments                                                                                                          !"'
                                                                                                                          1
We agree that there were areas for improvement in the implementation ofthe technical
assistance activities provided in the early part of the implementation of the Reading First                               r
program that were the subject ofthe draft audit. However, we have some significant
concerns as outlined below that the draft report did not recognize the positive aspects of
                                                                                                                          L
                                                                                                                          ~

the activities reviewed in the draft report (nor did it recognize the challenges faced in
planning these activities), and, in our view, did not present a balanced summary of these
activities.

 The Department faced many challenges in issuing thorough and immediate guidance and
providing helpful technical assistance· to potential applicants at the very start of this
progralll. Overall, the results were very positiw~ and the guidance and technical
assistance provided were generally greatly appreciated by the recipients ofthe guidance
and the participants in the technical assistance sessions. The draft report, focuses on the                               t

few negative comments in the evaluations by the participants of the Reading Leadership                                    f·­
Academies (RLAs), and does not adequately consider or weigh the many positive
comments that the Department received. The Department continues to receive positive                                       t·
comments about these sessions and the guidance provided, and has received many                                            [,
indications that the program is effective in helping children learn to read, and these early
guidance and technical assistance sessions were very helpful in making Reading First an                                   ....t
                                                                                                                          r-
                                                                                                                          ;
effective program.




                                                        www.ed.gov 


       Our mission is to ensure equal access to education and to promote educational exceUence throughout the Nation. 

Many of these concerns about presenting a balanced review were expressed at the exit 

conference with the OIG in reviewing the draft "point sheets." However, regrettably, 

these concerns do not appear to be adequately addressed in the draft report. 


 We agree that sessions were planned in a very expeditious manner and, in retrospect,
improvements could have been made. We specifically acknowledge that at the RLAs,
 Department officials could have and should have done more to clarify that the
Department was not promoting or endorsing specific reading programs, materials,
assessment instruments, or models of instruction. As noted below, there were some
efforts made to clarify this at the conference, but we agree generally that further efforts
should have been made, and thus, we agree with the recommendations in the report.
They will provide valuable improvements that the Department will implement to further
improve its technical assistance and dissemination activities in Reading First and other
programs. The following specific comments indicate continuing concerns we have with
the findings in the draft report.

Specific Comments

As noted above, while we concur with the recommendations in the draft report, we can
only agree in part with the findings in the draft report, because the draft report fails to
provide a balanced review especially with regard to the Reading Leadership Academies.
We have the following specific comments:

   • 	 The report notes that the Department did not instruct panel members in the
        "Theory to Practice" sessions not to name the programs that they were using.
        While we agree that the audience should have been adequately advised that the
        Department was not promoting or endorsing a specific program, we do not think
        that there is any problem in having panelists highlight certain successful programs
       or identify the specific programs they are implementing. This has happened at
       many conferences over the years; some of which were attended by representatives
       of the Office of Inspector General, and to our knowledge, we have rarely received
       negative comments about the naming of programs. To the contrary, we have
       received positive feedback that this is the kind of helpful information that
       applicants and grantees need to make their programs more effective.
       Furthermore, when panelists failed to specifically say what program they were
       implementing, participants during the question and answer session asked for the
       program to be named and the panelist typically responding by identifying the
       program. Thus, it is reasonable for the panelists to mention the names of the
       programs they were using, so that the Department can carry out its important
       statutory responsibilities to disseminate information on effective and promising
      practices.

  • 	 The report indicates that the Department included only a "select number" of
      reading programs for discussion by the "Theory to Practice" panel members. In
      planning a conference, at which attendees only have a limited time to attend and
      participate, the Department cannot be expected to present information on all



                                            2

    possible programs. It is reasonable that the Department should be able to present
    information on certain programs, as long as it is made clear that the programs
    presented are merely examples of the types of programs that might be supported
    with Reading First funds and that the presentation was not intended to be an
    endorsement or promotion of a specific program. In fact, the Reading First
    legislation specifically directs that funds be used to "support the continued
    identification and dissemination of information on reading programs that contain
    the essential components of reading instruction as supported by scientifically
    based reading research ..." (Section 1207(a)(3) of the Elementary and Secondary
    Education Act of 1965, as amended)

• 	 Admittedly, some members of the audience felt that the Department appeared to 

     be promoting certain reading programs. The Department representatives should 

     have taken additional steps at the beginning ofthe panel presentations to prevent 

     these impressions and did not adequately do so. However, once the Department 

     became aware that some members of the audience might have misunderstood the 

     purpose of the "Theory to Practice" sessions, the Department representatives 

     attempted to rectify this problem by specifically informing the audience that 

     Department officials were not attempting to endorse or promote any particular 

     program. Furthermore, Department officials took additional steps to clarify that 

     they were not endorsing or promoting particular programs, including posting a 

    clarifying note of the Reading First web site and sending a letter to Reading First 

    State Directors indicating that there was not an "approved list" of reading 

    programs that could be funded under Reading First. We are concerned that the 

    auditors use these subsequent actions to address the problems as further evidence 

    of the Department's initial failure to indicate adequately that it was not endorsing 

    or promoting particular programs, rather than recognizing these as positive steps 

    that Department personnel took expeditiously to clarify the false impression that
    was left with some of the conference attendees.

• 	 The report noted that some attendees at the first and third Reading Leadership
    Academies expressed on their evaluation forms concern that the Department was
    endorsing two specific programs. As we have indicated previously, we concur
    that it was problematic that some individuals were left with this impression and
    that the Department representatives should have done more at the outset to
    prevent this. On the other hand, many conference attendees made very positive
    comments on their evaluation forms and thought that the presentations were well
    done. The auditors merely highlighted the negative comments and the comments
    of individuals expressing concerns about the sessions. We recommend that the
    auditors consider a more balanced analysis ofthe evaluations ofthe conferences.




                                        3

    • 	 We acknowledge that the Department should have in place procedures to assess
        issues of bias and lack of objectivity on the part of potential technical assistance
        providers. However, the mere fact that certain individuals may have expertise
        with respect to particular programs should not preclude them from serving as
        technical assistance providers in any capacity. On the other hand, we
        acknowledge the Department should take steps to ensure that such individuals do
        not provide advice in areas in which they may have a financial conflict of interest.

Although we continue to have concerns about the draft report, we appreciate the
recommendations made in the report. Please let us know if you have any questions about
our comments or need additional infonnation with regard to these matters. Thank you
again for the opportunity to comment.

Attachment




                                           4

